                            U.S. Department of Agriculture
                                Office of Inspector General




   American Recovery and Reinvestment Act
Spending for Food and Nutrition Service Special
 Supplemental Nutrition Program for Women,
Infants, and Children Management Information
                    Systems




                                    Audit Report 27703-01-IT
                                                 August 2011
                              United States Department of Agriculture
                                       Office of Inspector General
                                        Washington, D.C. 20250



DATE:            August 22, 2011

AUDIT
NUMBER:          27703-01-IT

TO:              Audrey Rowe
                 Administrator
                 Food and Nutrition Service

ATTN:            Katherine Day
                 Director
                 Office of Internal Control, Audits and Investigation

FROM:            Gil H. Harden /s/
                 Assistant Inspector General
                  for Audit

SUBJECT:         American Recovery and Reinvestment Act Spending for Food and Nutrition
                 Service Special Supplemental Nutrition Program for Women, Infants, and
                 Children Management Information Systems

Summary

This report presents the results of our audit of the Food and Nutrition Service’s (FNS) use of
$100 million authorized by the American Recovery and Reinvestment Act of 2009 (Recovery
Act) for establishing, improving, and administering the Management Information Systems (MIS)
used by the Special Supplemental Nutrition program for Women, Infants, and Children (WIC).
FNS granted funds to advance and govern the WIC State agencies’ (SA) MIS projects and meet
new legislative and/or regulatory requirements, including the use of electronic benefits transfer
(EBT) functionality in the WIC program.

The Office of Inspector General’s (OIG) role, as mandated by the Recovery Act, was to oversee
agency activities to ensure funds were expended in a manner that minimized the risk of improper
use and conformed to the requirements of the Recovery Act. We conducted our audit at FNS’
National Office and five WIC SAs to determine whether FNS officials and WIC SAs properly
administered the Recovery Act funding. We found FNS and the reviewed WIC SAs were
properly adhering to Office of Management and Budget (OMB) guidance1 for Recovery Act
obligations, expenditures, and reporting, with the following exceptions:



1
 For a list of OMB Guidance issued for the Recovery Act, please refer to Exhibit A: Office of Management and
Budget American Recovery and Reinvestment Act Guidance.
Audrey Rowe                                                                                                         2


    ·    One of the five WIC SAs tested did not include proper documentation2 on
         FederalReporting.gov3 supporting payments made with Recovery Act funds.
    ·    Two of the five SAs did not have a process in place to ensure the number of jobs reported
         as created was accurate. Neither SA could provide support for contractor staff hours
         worked; therefore, we were unable to verify the number of jobs created. During the
         audit, the contractor for one of the two SAs provided OIG with the required supporting
         documentation.

These exceptions occurred because FNS’ National Office did not provide detailed guidance to
these WIC SAs to ensure Recovery Act compliance. As a result, there were instances where the
SAs were unfamiliar with the reporting system and reporting requirements. Additionally, SAs
were unaware of the methods prescribed by OMB to calculate jobs created. Generally, the
Regional Offices have the primary oversight role for the SAs. However, for Recovery Act
reporting, FNS’ National Office was the primary lead in overseeing the SAs that received the
funding.

Background

In response to the economic downturn, Congress passed the Recovery Act and the President
signed it into law on February 17, 2009. It provided FNS with $500 million for the WIC
Program. WIC is a nutrition assistance program used to provide supplemental foods, health care
referrals, and nutritional education for low-income pregnant, breastfeeding, and non-
breastfeeding postpartum women, and to infants and children up to age five, who are found to be
at nutritional risk. The Recovery Act further stipulated that $100 million of the $500 million was
to be issued via grants to the states to modernize the WIC SA’s MIS projects so they comply
with new legislative and/or regulatory requirements, which include the WIC Program’s use of
EBT.

EBT is a system used to electronically deliver WIC benefits and reconcile payments at the state
level. The use of EBT is an integral part of FNS’ national strategy towards modernizing and
streamlining business practices through electronic solutions. EBT improves accountability and
program monitoring for WIC SAs and for FNS’ monitoring of potential improper
payments. EBT allows for the migration from a paper-based food benefit delivery system to an
electronic benefit delivery system and enhances client services by simplifying the retail point-of-
sale transaction process. FNS pays the full cost of both administering the program and the
recipient benefits.4


2
  A contractor invoice for more than $293,000 was not reported on FederalReporting.gov.
3
  FederalReporting.gov is a Federal web site that recipients are required to use for Recovery Act reporting purposes.
Recipients must provide invoice details to support all payments in excess of $25,000. This requirement is defined
by Section 1512 of the Recovery Act and by OMB M-09-21, Section 3.3. This information is then available to the
public via the Recovery.gov website.
4
  FNS WIC Electronic Benefit Transfer (EBT) System Development, Implementation, and Expansion - 5 year Plan
(2003 - 2008), dated January 2003 and Status Update March 2006, reports that through the success of WIC EBT
projects to date, FNS has determined that WIC EBT is technically feasible and that it provides improvements in
service to WIC participants, provides a more streamlined benefit redemption process for WIC authorized vendors,
and improves accountability for WIC benefits both at the State and retailer levels.
Audrey Rowe                                                                                                  3


FNS prepared a Recovery Act implementation plan defining allocation mechanisms for the WIC
funds in compliance with the Recovery Act requirements and based on the WIC Program’s
technology goals. FNS and the WIC SAs created separate accounting codes within their current
processes to track Recovery Act funds.

To be equitable, FNS awarded grants on a competitive basis, using an existing process to
approve, award, report, and track the Recovery Act funding.5 The only two types of MIS
projects funded were WIC SA Model (SAM)6 systems and EBT.7 Funding was also available
for any technology needs associated with these two projects.

Congress, in enacting the Recovery Act, emphasized the need for accountability and
transparency for fund expenditures. OMB issued guidance (see Exhibit A) to clarify
requirements and establish steps that must be taken to facilitate the accountability and
transparency objectives of the Recovery Act. FNS provided WIC SAs with guidance requiring
the SAs to provide a plan to reduce risks and to ensure successful implementation of large
technology projects. FNS’ National Office was the lead in overseeing the SAs that received the
funding and the recipient reporting on Recovery.gov.

Objectives

Our audit objective was to determine if FNS had established adequate controls over the use and
reporting of the Recovery Act’s $100 million for WIC MIS funding. Specifically, our objective
included evaluating FNS’ efforts to ensure (1) programs were timely implemented, (2) proper
internal control procedures were established, (3) program participants met eligibility guidelines,
(4) participants properly complied with program requirements, and (5) agencies established
effective compliance operations.

Scope and Methodology

FNS received $100 million to fund WIC MIS projects. Our tests were developed to review how
FNS spent the funds designated for system development and improvements, including furthering
the use of EBT. The $100 million was obligated by the end of September 2010. FNS issued 53
grants for projects in 41 States. We reviewed 6 of these 53 FNS Recovery Act funded grants.
The grants were selected judgmentally to ensure large dollar expenditures and both of the two
MIS project types were reviewed. In addition, we obtained and analyzed applicable FNS weekly
reports submitted to Recovery.gov and quarterly reports submitted by recipients of Recovery Act
funds to FederalReporting.gov.




5
  To prepare SAs for possible future EBT implementation, FNS made Recovery Act funds available for SAs that
intended to implement EBT within the next 2 to 5 years, through the WIC EBT Planning Grants Request for
Cooperative Agreement Application.
6
  The WIC Program SAM Project is a FNS 5-year initiative to plan, develop and deploy model information systems
in WIC SAs. The model system has the following features: Modern Web Technology, Standard WIC Data
Elements, Open System Architecture, Modular Components, and Compliance with Federal Policy and Regulations.
7
  These grants were for SAs that would like to explore the feasibility of EBT implementation in their State.
Audrey Rowe                                                                                                              4


We assessed FNS’ policies, procedures, and internal controls regarding Recovery Act spending
for the MIS projects to ensure they complied with OMB guidelines. Where a tangible item was
purchased, we physically verified it existed. We conducted our audit work at FNS’ National
Office in Washington, D.C., and six WIC SA office sites; Jefferson City, Missouri; the
Chickasaw Nation in Ada, Oklahoma; New Orleans and Baton Rouge, Louisiana; Harrisburg,
Pennsylvania; and St. Paul, Minnesota. Our audit period was April 2010 through April 2011.

We examined FNS’ Recovery Act implementation process. We reviewed guidance provided to
FNS’ Regional Offices and WIC SAs on the use and reporting of Recovery Act funds. We
interviewed WIC SA officials and obtained supporting documentation. We reviewed the
documentation to ensure the Recovery Act requirements were met. We examined grant
cooperative agreement applications, assessed FNS’ grant award process, and analyzed Recovery
Act financial transactions recorded by FNS. We also verified job creation data, financial
reports,8 and recipient quarterly reports. We determined if the percentages of completion for the
WIC MIS projects were reported accurately. Our review did not include testing participant
eligibility determinations for WIC benefits,9 but did include performing limited tests of
application controls to determine whether the WIC SAs’ system operated as expected, based on
participant eligibility criteria.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Finding 1: FNS Needs to Ensure Recovery Act Spending is Documented

We reviewed 6 of the 53 FNS WIC MIS Recovery Act funded grants, applicable FNS weekly
reports submitted to Recovery.gov, and quarterly reports submitted by the recipients to
FederalReporting.gov. These six grants, totaling $10 million, were issued to five WIC SAs. Our
review found that one of the five WIC SAs did not have the supporting documentation required
for an expenditure of over $293,000.10 This occurred because FNS did not ensure the SA had
submitted supporting documentation to FederalReporting.gov as required by OMB guidance.
Due to the lack of detailed procedures, the SA stated it did not know it was required to submit
this information.

OMB reporting guidance requires a quarterly report to be submitted to FederalReporting.gov by
all Recovery Act recipients and sub-recipients that received Recovery Act funding in excess of


8
  The Financial Activity Report on Recovery.gov provides the obligations and expenditures of the Federal agency
that received the Recovery Act funds.
9
  We did not test participant eligibility determinations for WIC Recovery Act benefits. WIC Recovery Act funded
benefits were reviewed as part of audit 27703-1-Ch.
10
   FederalReporting.gov is a web site that recipients access in order to fulfill the reporting requirements as defined
by Section 1512 of the Recovery Act and by OMB M-09-21, Section 2.3 and 3.1. Agencies are required to provide
vendor information for payments in excess of $25,000. Specifically, the vendor’s Dun & Bradstreet number, the
amount of the payment, and a description of what was obtained in exchange for the payment must be reported.
Audrey Rowe                                                                                                       5


$25,000. As a result, FNS and the WIC SA did not provide the level of transparency required in
the Recovery Act. This finding was discussed with FNS’ National Office personnel and they
concurred that one of the five WIC SAs reviewed was unfamiliar with the prescribed reporting
requirement.

Recommendation 1

FNS should develop and implement an effective process to verify that all quarterly Recovery Act
recipient and sub-recipient reporting requirements are met as required by OMB M-09-21 and
communicate this to the SAs.

Agency Response

FNS concurred with this recommendation, issued reporting guidance to all award recipients, and
posted it on FNS’ website. Also, as of April 2011, FNS officially delegated WIC’s Recovery
Act reporting oversight responsibilities to FNS’ Regional Offices. The shift to the Regional
Office review allows for closer process oversight and improved data quality.

OIG Position

We accept FNS’ management decision.

Finding 2: FNS Needs to Ensure Contractor Time Charges are Documented

We examined five SAs to determine if each had a process in place to ensure the reported number
of jobs created was accurate. We reviewed the number of jobs that the WIC SAs reported to
FederalReporting.gov and obtained the related documentation to determine if the job calculations
were properly supported based on OMB M-09-21 guidance.11

We found two of the five SAs had contracts in place that did not require the contractors to
provide the SAs records detailing the hours contractors worked, as required by OMB. OMB
M-09-21 requires the SAs to have documented evidence of the actual hours worked, which is the
basis of the FTE calculation to report the number of jobs created. Neither SA was able to
provide OIG with the actual hours contractors worked; therefore, we were unable to verify the
jobs created were accurately reported on FederalReporting.gov. The SAs had estimated the
number of jobs created, based upon the total number of contractors working on the project. This
occurred because the contracts were in place prior to the Recovery Act, and although FNS’
National Office reviewed the contracts for federal procurement rules, they did not review them to
ensure they met Recovery Act requirements.



11
  OMB M-09-21, Implementing Guidance for the Reports on Use of Funds Pursuant to the American Recovery and
Reinvestment Act of 2009, June 22, 2009, Section 5. The estimate of the number of jobs required by the Recovery
Act should be expressed as “full-time equivalents” (FTE), which is calculated as total hours worked in jobs created
or retained divided by the number of hours in a full-time schedule, as defined by the recipient. The FTE estimates
must be reported cumulatively each calendar quarter.
Audrey Rowe                                                                                         6


Due to this oversight, FNS, WIC SAs and the contractors did not meet the Recovery Act
recipient reporting requirements. We could not validate the SAs accurately reported the number
of jobs created without the supporting documentation. This finding was discussed with FNS’
National Office personnel and they concurred that two of the five WIC SAs reviewed were
unfamiliar with the prescribed reporting requirements.

OMB Circular A-123 requires that expenditures applicable to agency operations be properly
recorded and accounted for, to permit the preparation of accounts and reliable financial and
statistical reports, and to maintain accountability over the assets.12 Additionally, it states that
management should have a clear, organized strategy with well-defined, documented processes
that contain an audit trail. OMB M-09-21 requires recipients to track hours worked quarterly for
the job creation calculation.

Recommendation 2

FNS should require that the WIC SAs include the required language in all contracts to ensure
jobs reported as created or saved are properly supported by documentation, and modify existing
contracts that received Recovery Act funding to integrate the necessary requirements.

Agency Response

FNS concurred with this recommendation and has provided all WIC Recovery Act funding
recipients with guidance and updates on the requirements for reporting jobs created/saved. FNS
will issue a memorandum to all WIC Recovery Act recipients reiterating the reporting
requirements regarding jobs created, to include the requirement that all contractors must be able
to provide a breakout of the actual hours worked within each quarter so that the SAs can justify
the number of hours reported in FederalReporting.gov. The memorandum of instruction will be
completed by August 31, 2011.

OIG Position

We accept FNS’ management decision. FNS needs to ensure that the memorandum provided to
Recovery Act recipients is in effect for the duration of every WIC Recovery Act contract.




12
     OMB Circular A-123, Management’s Responsibility for Internal Control, June 21, 1995.
Exhibit A: Office of Management and Budget American Recovery
and Reinvestment Act Guidance
The following is a list of OMB Memoranda that have been issued to provide guidance on the
Recovery Act for agencies and recipients of Recovery Act funds.

   ·   OMB Memorandum for Chief Acquisition Officers Senior Procurement Executives,
       Interim Guidance on Reviewing Contractor Reports on the Use of Recovery Act Funds in
       Accordance with Federal Acquisition Regulation Clause 52.204-11, dated September 30,
       2009;
   ·   OMB Memorandum M-09-16, Memorandum for the Heads of Executive Departments
       and Agencies, Interim Guidance Regarding Communications with Registered Lobbyists
       about Recovery Act Funds, dated April 7, 2009;
   ·   OMB Memorandum M-10-14, Updated Guidance on the American Recovery and
       Reinvestment Act, dated March 22, 2010;
   ·   OMB Memorandum M-10-08, Updated Guidance on the American Recovery and
       Reinvestment Act – Data Quality, Non-Reporting Recipients, and Reporting of Job
       Estimates, dated December 18, 2009;
   ·   OMB Memorandum M-09-10, Initial Implementing Guidance for the American Recovery
       and Reinvestment Act of 2009, dated February 18, 2009;
   ·   OMB Memorandum M-09-15, Updated Implementing Guidance for the American
       Recovery and Reinvestment Act of 2009, dated April 3, 2009;
   ·   OMB Memorandum M-09-16, Interim Guidance Regarding Communications With
       Registered Lobbyists About Recovery Act Funds, dated April 7, 2009;
   ·   OMB Memorandum M-09-18, Payments to State Grantees for Administrative Costs of
       Recovery Act Activities, dated May 11, 2009;
   ·   OMB Memorandum M-09-21, Implementing Guidance for the Reports on Use of Funds
       Pursuant to the American Recovery and Reinvestment Act of 2009, dated June 22, 2009;
   ·   OMB Memorandum M-09-30, Improving Recovery Act Recipient Reporting, dated
       September 11, 2009;
   ·   OMB Memorandum M-10-03, Payments to State Grantees for their Administrative Costs
       for Recovery Act Funding – Alternative Allocation Methodologies, dated October 13,
       2009;
   ·   OMB Memorandum M-10-05, Improving Compliance in Recovery Act Recipient
       Reporting, dated November 30, 2009;
   ·   OMB Memorandum M-10-17, Holding Recipients Accountable for Reporting
       Compliance under the American Recovery and Reinvestment Act, dated May 4, 2010;
   ·   OMB Circular A-123, Management’s Responsibility for Internal Control, June 21, 1995;
       and
   ·   Federal Acquisition Regulation FAR 52.204-11, American Recovery and Reinvestment
       Act-Reporting Requirements, dated March 2009.
Agency’s Response




                    USDA’S




       FOOD AND NUTRITION SERVICE




          REPONSE TO AUDIT REPORT
United States
Department of    DATE:          June 24, 2011
Agriculture
                 AUDIT
Food and
Nutrition        NUMBER:        27703-01-IT
Service
                 TO:            Gil H. Harden
3101 Park                       Assistant Inspector General for Audit
Center Drive
Room 712
                 FROM:          Audrey Rowe /S/
Alexandria, VA
22302-1500                      Administrator
                                Food and Nutrition Service

                 SUBJECT:       American Recovery and Reinvestment Act Spending for Food and
                                Nutrition Service Special Supplemental Nutrition Program for Women,
                                Infants, and Children Management Information Systems


                 This letter responds to the official draft audit report number 27703-01-IT, American
                 Recovery and Reinvestment Act Spending for Food and Nutrition Service Special
                 Supplemental Nutrition Program for Women, Infants, and Children Management
                 Information Systems. Specifically, the Food and Nutrition Service (FNS) is responding to
                 the two recommendations within the report.

                 OIG Recommendation 1:

                 FNS should develop and implement an effective process to verify that all quarterly
                 Recovery Act recipient and sub-recipient reporting requirements are met as required by
                 OMB M-09-21 and communicate this to the SAs.

                 Food and Nutrition Service Response:

                 FNS concurs with the stated recommendation and has completed corrective actions to
                 comply. Reporting guidance, to include sample reporting templates, was issued to all
                 award recipients and has been posted on FNS’s website. Further, recipients are urged to
                 review additional guidance posted on FederalReporting.gov, to include any updates and
                 revisions to the reporting process. FNS has instituted a change in the review and oversight
                 process for Recovery Act reporting, which has improved our ability to provide timely
                 technical assistance and guidance to all Recovery Act recipients. As of April 2011, FNS
                 WIC Recovery Act reporting oversight was officially delegated to the FNS Regional
                 Offices. Prior to this change, the National Office was responsible for the review of all
                 recipient reports. The shift to Regional Office review of quality, timeliness and
                 completeness of the reports allows for closer process oversight and improved data quality.
                 FNS has worked diligently with all Recovery Act recipients to ensure that all reporting
                 requirements are met as required by OMG M-09-21 and that all required information has
                 been communicated to the State Agencies. Completed: March 31, 2011



                                              AN EQUAL OPPORTUNITY EMPLOYER
OIG Recommendation 2:

FNS should require that the WIC SAs include the required language in all contracts to ensure
jobs reported as created or saved are properly supported by documentation, and modify
existing contracts that received Recovery Act funding to integrate the necessary
requirements.

Food and Nutrition Service Response:

FNS concurs with the stated recommendation and FNS has provided all WIC Recovery Act
funding recipients with guidance and updates on the requirements for reporting jobs
created/saved. FNS will issue a memorandum to all WIC Recovery Act recipients reiterating
the reporting requirements regarding jobs created, to include the requirement that all
contractors must be able to provide a breakout of the actual hours worked within each quarter
so that the State Agencies can justify the number of hours reported in FederalReporting.gov.
FNS will also include instruction to the State Agencies regarding all contracts funded in part
or wholly by Recovery Act funding should include this language, regardless of when the
contracts were awarded (even if contract award was prior to the receipt of Recovery Act
funding). The memorandum of instruction will be completed by August 31, 2011.




                               AN EQUAL OPPORTUNITY EMPLOYER
